No. 19-942
In the

Supreme Court of the United States
LAUREL ZUCKERMAN, AS ANCILLARY
ADMINISTRATRIX OF THE ESTATE
OF ALICE LEFFMANN,
Petitioner,
v.
THE METROPOLITAN MUSEUM OF ART,
Respondent.
On Petition for a Writ of Certiorari to
Court of A ppeals for the Second Circuit

the

BRIEF OF AMBASSADOR JAMES D.
BINDENAGEL AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
Owen Pell
Counsel of Record
Sequoia K aul
Sinclaire Marber
White & Case LLP
1221 Avenue of the Americas
New York, New York 10020
opell@whitecase.com
Counsel for Amicus Curiae
February 25, 2020
294466

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The nature of Holocaust looting was uniquely
abnormal and tainted all transactions
involving Jewish property . . . . . . . . . . . . . . . . . . . 4
A. The Nazis stripped Jews of all legal
vestiges of personhood, including as
related to their property . . . . . . . . . . . . . . . . 5
B. Fascist Italy provided no relief from
Nazi-driven theft or forced sales . . . . . . . . 10

II. Significant post-war obstacles to recovery
took no account of time-based defenses  . . . . . . 12
A. Victims had no systematic means
to identify, locate, or seek return of
Holocaust-looted art . . . . . . . . . . . . . . . . . . .12
B. Museums knowingly participated in a
tainted market  . . . . . . . . . . . . . . . . . . . . . . . 16

ii
Table of Contents
Page
III. Consi st ent w it h long st a nd i ng U. S .
policy, the HEAR Act was designed to
preempt all time-based defenses . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

iii
TABLE OF CITED AUTHORITIES
Page
CASES:
Am. Ins. Ass’n v. Garamendi,
539 U.S. 396 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Autocephalous Greek-Orthodox Church v.
Goldberg & Feldman Fine Arts, Inc.,
917 F.2d 278 (7th Cir. 1990)  . . . . . . . . . . . . . . . . . . . . 21
Brown v. Lake Superior Iron Co.,
134 U.S. 530 (1890) . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
DeWeerth v. Baldinger,
836 F.2d 103 (2d Cir. 1987) . . . . . . . . . . . . . . . . . . . . . 21
Henderson v. First Nat’l Bank,
494 S.W.2d 452 (Ark. 1973) . . . . . . . . . . . . . . . . . . . . . 20
O’Keeffe v. Snyder,
416 A.2d 862 (N.J. 1980) . . . . . . . . . . . . . . . . . . . . . . . 20
Snell v. Levitt,
18 N.E. 372 (N.Y. 1888) . . . . . . . . . . . . . . . . . . . . . . . . 21
United States v. Giles,
13 U.S. 212 (1815)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
United States v. Goering,
Judgment, 6 F.R.D. 69 (Int’l Military Trib.
at Nuremberg 1946) . . . . . . . . . . . . . . . . . . . . . . . . . 5, 7

iv
Cited Authorities
Page
Vineberg v. Bissonnette,
548 F.3d 50 (1st Cir. 2008) . . . . . . . . . . . . . . . . . . . . . 19
STATUTES AND OTHER AUTHORITIES:
Anmeldung des Vermögens von Juden, RGBl I,
414 (Apr. 26, 1938)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Ardelia R. Hall, The Recovery of Cultural Objects
Dispersed During World War II, 25 Dep’t St.
Bull. 337 (1951) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
David Cesarani, Becoming Eichmann: Rethinking
the Li fe, Cr imes, and T r ial of a Desk
Murderer (2004)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
David Cesarani, Final Solution: The Fate of
the Jews (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 6, 7
Götz A ly, Hitler ’s Benef iciar ies: Plunder,
Racial War and the Nazi Welfare State
(Jefferson Chase trans., 2007) . . . . . . . . . . . . . . . . . . . 5
Hector Feliciano, The Lost Museum: The Nazi
Conspiracy to Steal the World’s Greatest
Works of Art (Tim Bent trans., 1997) . . . . . . . . . . .5, 9
Holocaust Expropriated A rt Recovery Act,
Pub. L. No. 114-308, 130 Stat. 1524 (2016) . . . . passim

v
Cited Authorities
Page
Holocaust Vict i ms Red ress Act , P ub. L .
No. 105-158 (1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Independent Commission of Experts Switzerland
– Second World War, Switzerland, National
Socialism, and the Second World Wa r:
Final Report (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . .15
Ingo Müller, Hitler’s Justice: The Courts of the
Third Reich (1991) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Inter-Allied Declaration Against Acts of
Dispossession Committed in Territories
Un d er En emy Occ upa ti o n o r Co ntr ol
(1943) London Declaration, reprinted in
8 Dep’t St. Bull. 21 (1943) . . . . . . . . . . . . . . . . . . . . . . 16
Ir w in Colt er, The Holocaust , Thef ticide ,
an d Restitution: A Legal Perspective,
20 Cardozo L. Rev. 601 (1998)  . . . . . . . . . . . . . . . . . . 7
Jennifer Kreder, Analysis of the Holocaust
Expropriated Art Recovery Act of 2016,
20 Chapman L. Rev. 16 (2017) . . . . . . . . . . . . . . . . . . 14
Jennifer Kreder, Fighting Corruption of the
Historical Record: Nazi-Looted Art Litigation,
61 Kansas L. Rev. 100 (2002) . . . . . . . . . . . . .  14, 16, 19

vi
Cited Authorities
Page
John Henry Merryman, Albert E. Elsen &
S t e p h e n K . Ur i c e , L a w, E t h i c s a n d
the Visual Arts (2007)  . . . . . . . . . . . . . . . . . . . . . . . . 21
Jonathan Petropoulos, The Faustian Bargain: The
Art World in Nazi Germany (2000) . . . . . . . . . . . . . . . 9
Jonathan Petropoulos, Art as Politics in the
Third Reich (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Karl Loewenstein, Law in the Third Reich,
45 Yale L.J. 779 (1936)  . . . . . . . . . . . . . . . . . . . . . . . . . 8
Lynn H. Nicholas, The Rape of Europa: The Fate
of Europe’s Treasures in the Third Reich
and the Second World War (1995) . . . . . . . . . . . passim
Martin Dean, Robbing the Jews: The Confiscation of
Jewish Property in the Holocaust (2008) . . . . . . . . . . 8
Michele Sarfatti, The Jews in Mussolini’s Italy:
From Equality to Persecution (John and
Anne C. Tedeschi trans., 2006) . . . . . . . . . . . . . . . . . 10
Nicholas O’Donnell, A Tragic Fate: Law and Ethics
in the Battle Over Nazi-Looted Art (2017)  . . . . . . . 13
Nikolaus Wachsmann, KL: A History of the Nazi
Concentration Camps (2015) . . . . . . . . . . . . . . . . . . . . 6

vii
Cited Authorities
Page
Presidential Advisory Commission on Holocaust
Assets in the United States, Plunder and
Restitution: Findings and Recommendations
of the Presidential Advisory Commission on
Holocaust Assets in the United States and
Staff Report (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Proceedings of the Washington Conference
on Holocaust-Era Assets (J.D. Bindenagel
ed., 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Renzo De Felice, The Jews in Fascist Italy:
A History (Rober L. Miller trans., 2001) . . . . . . . . . 11
Richard J. Evans, The Third Reich in Power (2005) . . . 8
Richard Z. Chesnoff, Pack of Thieves: How
Hitler and Europe Plundered the Jews and
Committed the Greatest Theft in History (2001) . . 6, 7
Salomé Lienert, Swiss Immigration Policies
1933–1939, 2 Int’l Holocaust Remembrance
Alliance Series (2016) . . . . . . . . . . . . . . . . . . . . . . . . . 12
Stuart E. Eizenstat, Art Stolen By the Nazis is
Still Missing. Here’s How We Can Recover It.,
Wash. Post (Jan 2 , 2019)  . . . . . . . . . . . . . . . . . . . . . . 22
Stuart E. Eizenstat, In Support of Principles
on Nazi-Confiscated Art, Presentation at the
Washington Conference on Holocaust-Era Assets
(Dec. 3, 1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

viii
Cited Authorities
Page
S t u a r t E . Ei z en st at , Key not e A dd r e s s ,
Proceedings of the Holocaust Era Assets
Conference (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Terezín Declaration on Holocaust Era Assets and
Related Issues, June 30, 2009 . . . . . . . . . . . . . . . . . . 20
Verordnung über den Einsatz des jüdischen
Vermögens, RGBl I, 1709 (Dec. 3, 1938) . . . . . . . . . . 11

1
INTEREST OF AMICUS CURIAE
James D. Bindenagel1 served as a diplomat in East,
West, and united Germany from 1972 to 2002, including
serving as Deputy U.S. Ambassador. His distinguished
diplomatic career spanned the fall of the Berlin Wall, end
of the Cold War, German reunification, and the litigation
that then ensued regarding unresolved issues relating to
the Holocaust, including Holocaust-era assets.
Ambassador Bindenagel served as U.S. Ambassador
and Special Envoy for Holocaust Issues from 1998 to
2002, serving as Conference Director for the Washington
Conference on Holocaust-Era Assets and editor of
its published proceedings. He also represented the
United States at the Washington Conference, and in
the negotiations leading to the creation of the German
Foundation for Remembrance, Responsibility and Future,
a multi-billion dollar fund established as part of the
resolution of U.S. Holocaust-related class action litigation,
as well as in the other major U.S. Holocaust litigation
settlements. As such, he is intimately familiar with the
issues surrounding Holocaust-looted art, especially as
to the myriad time-based defenses frequently used to
frustrate the claims of survivors and their heirs.
1. Counsel for Appellant and Appellees have consented to Mr.
Bindenagel participating and filing this brief as an amicus curiae.
Counsel can certify that counsel of record for all parties received
notice at least 10 days prior to the due date of Mr. Bindenagel’s
intention to file this brief. No other counsel for any party authored
this brief in whole or in part, and no person or entity other than
counsel to amicus curiae made a monetary contribution to the
preparation or submission of this brief.

2
Given his experience, Ambassador Bindenagel
understands that U.S. policy as to Holocaust-era art claims
is guided by the principle that an array of time-based
“technical defenses” should not be available to thwart
the resolution of Holocaust-era claims on their merits.
As much as anyone, Ambassador Bindenagel understands
that the HEAR Act was intended to accomplish that goal,
and that the ruling of the Second Circuit threatens to
irreparably frustrate U.S. policy in this area.
Ambassador Bindenagel currently serves as a senior
non-resident fellow with The German Marshall Fund of
the United States, and is the Henry Kissinger Professor
and Director of the Center for International Security
and Governance at the Rheinische Friedrich-WilhelmsUniversity in Bonn, Germany.
SUMMARY OF ARGUMENT
For over seventy years, U.S. policy regarding the return
of Holocaust-era assets has been consistent, anchored in
an understanding that “[t]he Nazis’ policy of looting art
was a critical element and incentive in their campaign of
genocide” against the Jewish people. Holocaust Victims
Redress Act, Pub. L. No. 105-158, § 201(4), 112 Stat. 15,
17 (1998). Thus “the Nazi regimentation of inhumanity we
characterize as the Holocaust, marked most horrifically
by genocide and enslavement, also entailed widespread
destruction, confiscation, and theft of property belonging
to Jews.” Am. Ins. Ass’n v. Garamendi, 539 U.S. 396,
430 (2003) (Ginsburg, J., dissenting). The nature and
unprecedented scale of Nazi looting not only facilitated the
strategy of eliminating Jews from all spheres of society, it
was itself an act of genocide profoundly different from the

3
“normal” circumstances from which claims for replevin
might typically arise.
Holocaust looting created circumstances that the law
was ill-equipped to address, both as to a victim’s ability to
police and pursue their property, and as to the tracking of
the stolen property itself. It was in this world of abnormal
theft that Paul and Alice Leffmann found themselves. The
Leffmanns, German-Jewish refugees, who fled to Italy in
1937 only to flee in terror again in 1938, were forced to
sell their treasured Pablo Picasso painting, The Actor (the
“Painting”), in order to finance their escape (the “Sale”).
The Painting ultimately was resold and donated to The
Metropolitan Museum of Art (“The Met”) in 1952—which
then failed to correctly list the Painting’s provenance for
decades.
The abnormality of the looting process was then
compounded after World War II. Although the Allies had
widely publicized the fact of Nazi looting, especially to
museums and the professional art market, no systematic
or uniform approach ever was implemented to address
how Holocaust victims or their families should identify,
locate, or recover their property. Absent a systematic
legal approach, Holocaust-era art claims have always been
uniquely susceptible to an array of time-based defenses
that go beyond simple statutes of limitation—a problem
expressly acknowledged at the two major international
conferences dedicated to Holocaust-era asset issue (the
Washington and Prague conferences). But, as recognized
by the U.S. State Department and Congress, time-based
defenses premised on transaction occurring in societies
operating under the rule of law cannot fairly be applied
to claims for art looted or forcibly sold under the unique
and profoundly illegal circumstances of the Holocaust.

4
The Holocaust Expropriated Art Recovery (“HEAR”)
Act of 2016 represented the first attempt by the United
States to address this issue by ensuring that museums and
other holders act honorably, equitably, and responsibly by
not relying on time-based technical defenses, such that
Holocaust-era art claims could be resolved on their merits.
The HEAR Act does this by creating a limited six-year
federal window for Holocaust survivors and their heirs to
bring claims for art lost during the Holocaust. Addressing
the patchwork quilt of state law time-based defenses—in
addition to statutes of limitations—Congress employed
broad language to preempt “any defense at law relating
to the passage of time.” HEAR Act, Pub. L. No. 114308, § 5(a), 130 Stat. 1524, 1526 (2016) (emphasis added).
The Second Circuit’s decision eviscerates the HEAR
Act by reading the Act as limited to state statutes of
limitations, thus allowing the continued use of the timebased defenses that Congress knew are routinely used to
thwart potentially meritorious claims. The Court’s review
and intervention is warranted.
ARGUMENT
I.

The nature of Holocaust looting was uniquely
abnormal and tainted all transactions involving
Jewish property.

The Nazi regime murdered six million men, women,
and children simply because they had Jewish blood. For
each victim, death was only the final step in a Stateadministered process of exclusion, expropriation, and
extermination. From 1933 to 1945, the Nazis wielded
the rule of law as a tool of oppression, enacting over 400
decrees aimed at eradicating “Jewish corruption” from

5
Germany and German-controlled Europe. See United
States v. Goering, Judgment, 6 F.R.D. 69, 79–82, 126–30
(Int’l Military Trib. at Nuremberg 1946) (“Nuremberg
Judgment”). This co-opting of law for illegal purposes
infected all transactions involving Jews and Jewish-owned
property, including the Sale at issue here.
A.

The Nazis stripped Jews of all legal vestiges
of personhood, including as related to their
property.

The Leffmanns lived in Germany until 1937. App.
to Pet. Cert. (“App.”) 85. Under Nazi rule, Jews were
stripped of all identity, except that of “enemy.” Götz Aly,
Hitler’s Beneficiaries: Plunder, Racial War and the Nazi
Welfare State 91 (Jefferson Chase trans., 2007); Hector
Feliciano, The Lost Museum: The Nazi Conspiracy to
Steal the World’s Greatest Works of Art 40 (Tim Bent
trans., 1997). Germany revoked Jewish citizenship and
Jews were later declared stateless, thereby forfeiting all
protections at law. Unlike in a “normal” society, Jews had
no right to invoke normal processes by which the State
would protect their person or property, nor could they
readily seek redress from the courts. Jews ceased to exist
as citizens under German law; they had become, at best,
“hostages” in a country that was once their own. David
Cesarani, Final Solution: The Fate of the Jews 1933–1949
117 (2016). As Jews, they were identifiable, segregated,
and in peril.
German Jews like the Leffmanns witnessed firsthand
the terror of this reality. By the mid-1930s, even the judiciary
had succumbed to “Himmler’s vision of unrestrained
police power” and coordinated with the Gestapo to fill

6
new and ever-expanding camps with prisoners. Nikolaus
Wachsmann, KL: A History of the Nazi Concentration
Camps 64 (2015). Initially, the Reich unleashed a campaign
of forced Jewish emigration, using fear to “encourage” and
ultimately compel hundreds of thousands of German Jews
to flee the country. Cesarani, supra, at 118. By 1937, Nazi
strategy was intent on “eliminating the economic basis for
Jewish existence.” Id. at 127. To facilitate their elimination
from the economy, Jews were required to register their
assets with the State—whether located in Germany or
abroad—which registries then facilitated future asset
confiscations. Lynn H. Nicholas, The Rape of Europa: The
Fate of Europe’s Treasures in the Third Reich and the
Second World War 39 (1995).
Of the hundreds of anti-Jewish measures initiated
by the Reich, those aimed at Jewish property created “an
almost inescapable legal net which the Nazis used to snare
their victims.” Jonathan Petropoulos, Art as Politics in
the Third Reich 84 (1996). Jewish businesses and assets,
including art and cultural property, were subject to forced
sale to Aryan trustees for a fraction of their value. Richard
Z. Chesnoff, Pack of Thieves: How Hitler and Europe
Plundered the Jews and Committed the Greatest Theft in
History 8–9 (2001). The proceeds were paid into blocked
bank accounts to which Jews had no access, and which
ultimately were seized by the State. Nicholas, supra, at
104. It is well-documented that Jews were forced to sell
their remaining valuables at steep discounts “in fear of
imminent expropriation.” Cesarani, supra, at 161 (citing
extensive examples).
In the years leading up to the war, Jews were allowed
to escape, but only by buying their way out. Those too poor
to emigrate or who could not find a destination willing

7
to receive them would be, over time, forcibly relocated
to ghettos, and then to death or concentration/labor
camps. Id. at 163–65; Nuremberg Judgment at 127–28.
For Jews, economic liquidation was a portent of physical
liquidation—a signpost of eventual genocide. See Irwin
Colter, The Holocaust, Thefticide, and Restitution: A
Legal Perspective, 20 Cardozo L. Rev. 601, 607–09 (1998).
For those prepared to flee, the Nazis imposed a “Reich
Flight Tax” that forced Jews to relinquish almost all of
their property to layers of Nazi bureaucrats. Chesnoff,
supra, at 21–22. To satisfy State-mandated exit fees,
Jews sold possessions “which in normal times they would
never have let go.” Nicholas, supra, at 31. Even then, the
regulatory maze and repressive exchange rate left Jews
fleeing Germany with almost nothing. As the American
Counsel General in Berlin recorded:
There is a curious respect for legalistic
formalities. The signature of the person
despoiled is always obtained, even if the person
in question has to be sent to Dachau in order
to break down his resistance. The individual,
moreover, must go through an endless series of
transactions in order to liquidate his property
and possessions, and proceed abroad penniless.
Id. at 39.
The Reich thus used the color of law to certify a system
of mass extortion—or “thefticide” 2 —that stripped Jews of
2. See Cotler, supra, at 602 (using the term “thefticide” to
describe what was “the greatest mass theft on the occasion of the
greatest mass murder in history”).

8
their liberty and property. See, e.g., Martin Dean, Robbing
the Jews: The Confiscation of Jewish Property in the
Holocaust, 1933-1945 (2008); Richard J. Evans, The Third
Reich in Power 332–411 (2005); David Cesarani, Becoming
Eichmann: Rethinking the Life, Crimes, and Trial of a
Desk Murderer 67 (2004); Ingo Müller, Hitler’s Justice:
The Courts of the Third Reich (1991). This process,
experienced firsthand by the Leffmanns, was designed
to terrorize, and as evidenced by the flood of refugees, it
was wildly successful. It was also entirely inequitable. As
Professor Karl Loewenstein wrote in 1936, normal rules
of law no longer protected or applied to the Jews:
Jews are finally driven out even from the
remaining nooks and crannies of economic
life by the official economic boycott, more or
less endorsed by the courts. . . . Obligations
of contract, vested rights, the right to dispose
freely of property, were superseded by political
coordination. Legal titles were voided and
property confiscated under the pressure of
party members and officials.
Karl Loewenstein, Law in the Third Reich, 45 Yale L.J.
779, 797, 807 (1936). The historical record leaves no doubt
that artworks extorted from Jews through forced sales—
including sales of so-called “flight art” used to finance
escape—flooded the market.
It was common knowledge among dealers, auction
houses, museums, and the international art trade that,
while the Nazis were otherwise busy liquidating Jewish
assets, art could be acquired directly from fleeing Jews at
fire sale prices. Nicholas, supra, at 27–30. The Reich relied

9
on a network of art dealers to orchestrate off-the-books
transactions to evade import-export restrictions and/
or conceal the provenance of acquired works. Feliciano,
supra, at 116–17, 126–27; Jonathan Petropoulos, The
Faustian Bargain: The Art World in Nazi Germany 85–87,
102–03 (2000). These dealers manipulated bureaucrats,
orchestrating bounties for information on Jewish-owned
art. Feliciano, supra, at 70–71. Oftentimes, dealers
sidestepped the Nazis entirely by extorting art directly
from Jews by threatening to report their collections to the
authorities. This practice became so prevalent that the
Nazis issued decrees to remind the public that, legally,
all now “ownerless” property belonged to the State.
Petropoulos, Faustian Bargain, supra, at 28–29.
At bottom, this process was wholly abnormal in
terms of how the law is designed to address theft. Legal
doctrines relating to property ownership and transfer
rest on a foundation that assumes freedom of choice, the
right to bargain, and the ability to test unfair contracts
in court. In the event of property loss, the law presumes
that individuals will ascertain what property is missing
and report losses to the police (and often insurers),
who are expected to assist in seeking recovery, and
that other potential buyers will refrain from accepting
stolen property. These presumptions, in turn, support
the requirement across a range of legal doctrines that
those who have lost property act with certain levels of
diligence in seeking recovery, or be subject to defenses
that will prevent any dispute from reaching the merits of
ownership. As is obvious from the above, however, none
of these “normal” presumptions about property loss and
recovery applied to Holocaust-looted art. Rather, it was
uniquely abnormal.

10
B. Fascist Italy provided no relief from Nazidriven theft or forced sales.
As the Leffmanns escaped Germany in 1937, antiSemitism and Nazi policy spread like a contagion across
Europe. Michele Sarfatti, The Jews in Mussolini’s Italy:
From Equality to Persecution 122 (John and Anne C.
Tedeschi trans., 2006). To the extent it had ever been
a relative safe haven, the situation in Fascist Italy
deteriorated quickly—keeping pressure on Jewish
refugees to scatter their property in order to support
further escape. The first weeks of 1938 brought Statemandated identification and census of Jews, then
“Aryanization” of Jewish property, expulsion of Jews from
government and the press, adoption of a legal definition of
“Jew” as distinctly other, and the openly-reported drafting
of decisive racial legislation. Id. at 121.
During the first nine months of 1938 —i.e., the
months leading up to the Sale—the corrosive measures
implemented against the Jews by Italy’s Fascist
government were among Europe’s “most draconian, after
Germany’s, and contained certain specific provisions which
were . . . even harsher than corresponding measures”
employed by the Nazis. Id. at 124–25. Jews in Italy had
become wide-awake to “the spread of an appreciable
and painful . . . anti-Semitism,” a specter of what they
perceived as “a preordained and broadly organized
scheme, which is not satisfied with simple intimidation,
but aims for concrete results.” Id. at 123 (quoting Gino
Luzzatto, an Italian Jew, in January 1938).
For German-Jewish refugees like the Leffmanns,
the situation in Italy was especially precarious. Since the

11
formation of the Rome-Berlin Axis in 1936, a GermanItalian Police Agreement had allowed for the exchange
of information about and identification of German Jews
residing in Italy, as well as for their interrogation, arrest,
and/or extradition. Renzo De Felice, The Jews in Fascist
Italy: A History 232–33 (Rober L. Miller trans., 2001).
By March, Italy had slammed its doors to continued
immigration following Germany’s annexation of Austria.
By May 1938, the Reich had formally weaponized
the asset inventory system, first by requiring German
Jews—including those living abroad—to declare all
valuables still in their possession, 3 and then prohibiting
Jews from selling “objects made from precious metals,
jewelry and works of art with a value over RM 1,000”
as of December.4 Together, these orders attempted to
ensure that any valuable property Jews had left not only
would be sequestered by the Reich, but also would become
worthless because, come December, that property could
not be legally sold. The pressure was unfathomable;
German Jews seeking to escape had but one choice—to
sell, and sell quickly.
Without legal property rights, power to bargain, time
to spare, or the ability to seek redress in court, no Jew was
in a position to freely choose a buyer or obtain fair terms.
Jews—especially German Jews like the Leffmanns—had
no adequate legal remedies and no sources of alternative
3. Property registered in accordance with the order would “be
secured in accordance with the dictates of the German economy.”
Anmeldung des Vermögens von Juden, RGBl I, 414 (Apr. 26, 1938).
4. Verordnung über den Einsatz des jüdischen Vermögens,
RGBl I, 1709 (Dec. 3, 1938).

12
funding because they were being stripped of all rights in
property and forced to emigrate almost destitute. 5 Jews
fleeing persecution also had no ability to later rescind
sales of flight art. The abhorrent reality of the Holocaust,
which supplanted ordinary conditions of law, equity, and
economics, thus rendered transactions like the Sale at
issue irreversibly tainted.
II. Significant post-war obstacles to recovery took no
account of time-based defenses.
A.

Victims had no systematic means to identify,
locate, or seek return of Holocaust-looted art.

After the war, art and other assets looted or forcibly
sold by Jews fleeing the Holocaust were transferred from
territories previously controlled by the Nazis to European
nations and the United States. Notwithstanding the
abnormal nature of the Holocaust, no unified framework
was created to assist survivors and their families
identifying, locating, or seeking return of lost art. Rather,
chaos in the post-war restitution process compounded the
injustices of Nazi looting and forced sales. Thus, no steps
were taken to restore balance or normalcy to legal rights
or obligations. Instead, Holocaust victims were left to
navigate the complicated and ever-changing systems of
5. Rejection of German Jews at the Swiss border, for example,
was a daily occurrence. Jewish refugees like the Leffmanns could only
enter Switzerland if they paid the required fee—called “a bail”—in
exchange for a temporary permit. For those not immediately turned
away, the “J Stamp” on their passports rendered it impossible to
avoid paying the “bail.” See Salomé Lienert, Swiss Immigration
Policies 1933–1939, 2 Int’l Holocaust Remembrance Alliance Series
41, 43, 46–48 (2016).

13
multiple countries—none of which were geared towards
fairness for those victims.
The Monuments, Fine Arts, and Archives (“MFAA”)
Section of the Allied Armies, charged with protecting
cultural treasures during the war, was faced with the
“Sisyphean task” of returning vast repositories of
recovered art in its aftermath. Nicholas O’Donnell, A
Tragic Fate: Law and Ethics in the Battle Over NaziLooted Art 18 (2017). There were literally millions of
objects, little staff, and no unified, international restitution
commission or rules to guide the process. Nicholas, supra,
at 407. The Allies implemented a policy of “external
restitution,” whereby artworks were returned to the
countries from which they had been removed, rather
than to individuals. Presidential Advisory Commission
on Holocaust Assets in the United States, Plunder and
Restitution: Findings and Recommendations of the
Presidential Advisory Commission on Holocaust Assets
in the United States and Staff Report (2000); see also
O’Donnell, supra, at 18; Nicholas, supra, at 407–09. Each
receiving nation then became responsible for identifying
rightful owners and implementing its own restitution
system, with no overarching body to set standards or
ensure compliance. Nicholas, supra, at 413–14. Thus, the
frenzy of Holocaust looting was replaced by the chaos of
Holocaust-related property recovery.
In addition to the overwhelming trauma of the
Holocaust, victims were faced with a many-headed hydra
of obstacles to recover their art and other possessions.
Significantly, many of these obstacles related in different
ways to the passage of time. For example, claims periods
set by European states were variable and discouragingly

14
short, taking no account for the way the law was twisted
in the original looting, or the lack of a central registry of
recovered property. There was no effort to extend even
U.S. limitations periods, which for personal property
generally do not exceed three to five years. In any event,
the sheer volume of material and lack of centralized
records made it nearly impossible for victims to conduct
multi-jurisdictional searches, even if they had the capacity
and financial means to do so.
Claimants who had lost their possessions likewise
lacked evidence of that dispossessed property—or where
it might have gone after it was lost and they were fleeing for
their lives. The Nazis had not provided detailed receipts.
Family members and heirs may not even have been aware
of art for which they were entitled to restitution. Jews
that escaped the Holocaust, like the Leffmanns, also may
not have returned to their country of origin, and, if they
did, may have been fearful of engaging with government
authorities. Jennifer Kreder, Analysis of the Holocaust
Expropriated Art Recovery Act of 2016, 20 Chapman L.
Rev. 16 (2017). Indeed, “those staffing the governmental
bureaucracies after the war were not too uncommonly
aligned with the Nazis during the war; many were antiSemitic and biased against the victims.” Id. at 8.
Switzerland, where the Leffmanns emigrated from
Brazil in 1947, exemplifies the failures of post-war
restitution. Despite its alleged neutrality during the war,
Switzerland in fact profited greatly from its role as an
intermediary and repository for trafficked art, and only
nominally adhered to Allied restitution protocols. Kreder,
Fighting Corruption of the Historical Record: NaziLooted Art Litigation, 61 Kansas L. Rev. 100–02 (2002).

15
Britain identified a preliminary list of less than 100 works
that had reached the Swiss Federation. That list—itself
inconsistent with Allied records of how much looted art
moved among Swiss dealers—represented the entire
scope of Swiss post-war restitution efforts. The Swiss
then enacted a two-year claims period (expiring in 1947)
that only applied to property removed from Germanoccupied territories, thereby excluding art stolen from
Germany and Austria, which had been absorbed by the
Third Reich. Those who did bring claims in Switzerland
faced serious legal hurdles, as a presumption of validity
often applied to Nazi seizures or sales made under duress.
See Independent Commission of Experts Switzerland –
Second World War, Switzerland, National Socialism, and
the Second World War: Final Report 473 (2002).
In the years following the Holocaust, the wrongs
f lowing from the lack of a systematic approach to
restitution cascaded and multiplied logarithmically,
leaving Holocaust victims without a framework for
navigating a patchwork quilt of laws in Europe and the
United States. Without knowing where their property was
or even how to search for it, there was no way to ascertain
which country’s complex processes for bringing claims
were potentially applicable. Short limitations periods in
all countries then blocked many claims before claimants
were even aware that a claim existed. In short, by the late
1940s, survivors like the Leffmanns would have had good
reason to believe that they already had lost any chance to
recover property like the Painting.

16
B. Museums knowingly participated in a tainted
market.
U.S. museums, art dealers, and collectors were acutely
aware of the flow of tainted art coming from Europe. By
1943, the Allies had issued the Inter-Allied Declaration
Against Acts of Dispossession Committed in Territories
Under Enemy Occupation or Control (the “London
Declaration”), formally recognizing the mass looting,
and reserving the right to invalidate transfers of Nazilooted property and “transactions apparently legal in
form, even when they purport to be voluntarily effected.”
London Declaration, reprinted in 8 Dep’t St. Bull. 21,
21–22 (1943). Later that year, the American Commission
for the Protection and Salvage of Artistic and Historic
Monuments in War Areas (the “Roberts Commission”),
which would oversee the MFAA, was formed. From 1943 to
1946, the Roberts Commission warned museums against
the acquisition of stolen artworks.
Ironically, MFA A and other U.S. officials who
witnessed the scale of Nazi looting firsthand then returned
to work at America’s most prominent museums. James
Rorimer, for example, resumed his position at The Met
and became its director in 1955. See Kreder, Fighting
Corruption, supra, at 96. Nonetheless, as early as 1948,
American museum officials openly advocated dealing in
Holocaust-looted art to improve museum collections. As
one former officer of the U.S. wartime intelligence agency,
Office of Strategic Services, who had gone on to become
a curator at The Met told The New Yorker:
America has a chance to get some wonderful
things here during the next few years. . . . I

17
think it’s absurd to let the Germans have the
paintings the Nazi big-wigs got, often through
forced sales, from all over Europe. Some of it
ought to come here, and I don’t mean especially
to the Metropolitan, which is fairly well off for
paintings, but to museums in the West which
aren’t.
Nicholas, supra, at 438 –39 (quoting statements by
Theodore Rousseau). That museums snapped up tainted
art cannot be doubted. As recognized by the preeminent
scholar Lynn H. Nicholas: “This unrecovered art is the
most difficult category to deal with, for we do not know
where or exactly what it is until it suddenly appears in a
museum or on the market and is recognized.” Proceedings
of the Washington Conference on Holocaust-Era Assets
450–51 (J.D. Bindenagel ed., 1999).
After the Roberts Commission disbanded, Ardelia
Hall became Fine Arts and Monuments Advisor to the
U.S. State Department. A staunch advocate for restitution,
Hall maintained extensive lists and circulated multiple
alerts to U.S. institutions about not accepting Holocaustlooted art. Hall also warned museums that “restitution
may be expected to continue for as long as works of art
known to have been plundered during the war continue
to be rediscovered.” Ardelia R. Hall, The Recovery of
Cultural Objects Dispersed During World War II, 25
Dep’t St. Bull. 337, 339 (1951).
In short, major museums like The Met were on
notice not to acquire art tainted by the Holocaust, like
the Painting at issue, well before it was donated to the
museum in 1952. App. 95, 100–01. When The Met first
listed the Painting in its catalogue in 1967—after both

18
Paul and Alice Leffmann had died, App. 99–100—it, like
other museums, knew of U.S. policy against acquiring
looted art. Even so, after waiting another 50 years to
correct the Painting’s erroneous provenance, The Met
now relies on a time-based defense to hold on to a work it
received for nothing and should have known better than
to accept. It is this type of inequitable conduct—designed
to prevent Holocaust-era art claims from reaching their
factual merits—that the HEAR Act was meant to address.
III. Consistent with longstanding U.S. policy, the
HEAR Act was designed to preempt all time-based
defenses.
In response to the abnormal nature of Holocaust
looting and the chaos surrounding post-war restitution,
U.S. policy has been clear that Holocaust-era art claims
should be resolved on their merits, without the burdens
of technical defenses inappropriate to the context of the
Holocaust. The Washington Conference on Holocaust-Era
Assets, jointly hosted in 1998 by the U.S. Department of
State and United States Holocaust Memorial Museum,
recognized that,
After existing art works have been matched
with documented losses comes the delicate
process of reconciling competing equities of
ownership to produce a just and fair solution . . .
begin[ning] by recognizing this as a moral
matter – we should not apply the ordinary
rules designed for commercial transactions
of societies that operate under the rule of law
to people whose property and very lives were
taken by one of the most profoundly illegal
regimes the world has ever known.

19
Stuart E. Eizenstat, In Support of Principles on
Nazi-Confiscated Art, Presentation at the Washington
Conference on Holocaust-Era Assets (Dec. 3, 1998).
Notwithstanding clear U.S. policy, museums holding
artwork stolen or forcibly sold during the Holocaust have
continually asserted time-based technical defenses,
including laches, to thwart fact-based resolution of
Holocaust-era art claims. Indeed, museums even have
gone on the offensive to keep Holocaust-looted art,
launching actions as plaintiffs to “quiet title.” See Kreder,
Fighting Corruption, supra, at 82. Sadly, this approach
almost always works. Without an understanding of the
uniquely abnormal nature of Holocaust-era property
transactions or the chaotic aftermath that perpetuated
that injustice, federal courts have broadly rejected
virtually all Holocaust-era art claims on procedural
grounds, most often based on time-based defenses like
laches and statutes of limitations—defenses that are
often asserted interchangeably. See id. at 85. Only one
such claim has survived a laches defense and secured an
order of replevin. See Vineberg v. Bissonnette, 548 F.3d
50, 56–59 (1st Cir. 2008).
In response to this abuse of time-based defenses, the
United States and 46 other nations signed the Terezín
Declaration at the 2009 Holocaust-Era Assets Conference
in Prague. Central to the proceedings was a concern with
“the tendency for holders of disputed art to seek refuge in
technical defenses to avoid potentially meritorious claims,
including statutes of limitation; adverse possession; deaccession laws [i.e., laws creating a legal presumption
against removing artwork from a museum collection after
it has been accessioned into the collection]; and export

20
control laws, which bar the export of looted art back to
their rightful owner, even when its ownership has been
established.” Stuart E. Eizenstat, Keynote Address,
Proceedings of the Holocaust Era Assets Conference
76 (2009). In an effort to ensure that looted art claims
receive “fair and just solutions encompassing decisions
on their merits, i.e. on a moral basis and not on technical
defenses such as the passage of time,” id. at 48, the Terezín
Declaration urged all governments to “make certain that
claims to recover such art are resolved expeditiously
and based on the facts and merits of the claims” and to
“consider all relevant issues when applying various legal
provisions that may impede the restitution of art and
cultural property.” Terezín Declaration on Holocaust Era
Assets and Related Issues, June 30, 2009, at 4. It was this
understanding that shaped the HEAR Act.
As signatories of the Washington Conference
Principles and Terezín Declaration understood, “technical
defenses” include multiple defenses like laches, adverse
possession, and abandonment—all of which are rooted
in the passage of time and its relationship to the relative
rights of a holder to cut off the rights of a true owner.
U.S. state law contains a veritable patchwork quilt of
defenses which vary in form (and are not reliant on a
distinction of law and equity), but have a common and
defining characteristic: each involves the passage of
time to cut-off a claim for replevin. Adverse possession,
for instance, requires a prescribed time period to have
elapsed before title passes. See, e.g., Henderson v. First
Nat’l Bank, 494 S.W.2d 452, 459 (Ark. 1973) (three-year
limitations period); O’Keeffe v. Snyder, 416 A.2d 862, 870
(N.J. 1980) (six-year limitations period). The passage of
time, together with other factors, also informs a court’s

21
analysis whether a claimant intended to abandon property.
Snell v. Levitt, 18 N.E. 372-373, 370 (N.Y. 1888) (“The
length of time that is continued is one of the elements
from which the intention to abandon or retain the right is
inferred.”). Lack of diligence due to the passage of time
can also bar a claim, even if brought within the relevant
statute of limitations. Autocephalous Greek-Orthodox
Church v. Goldberg & Feldman Fine Arts, Inc., 917 F.2d
278, 287-88 (7th Cir. 1990) (considering whether a ten-year
delay in bringing suit caused the action to be untimely,
and noting the importance of plaintiff’s diligence in
investigating the cause of action); DeWeerth v. Baldinger,
836 F.2d 103, 107 (2d Cir. 1987) (considering whether a
37-year delay in bringing the action made it untimely, or
whether plaintiff had acted diligently in attempting to
locate the missing art).
Each of these defenses—like statutory limitations
periods—looks to the timeliness of the claim to in some
manner assess the litigants’ respective obligations of
due diligence. See John Henry Merryman, Albert E.
Elsen & Stephen K. Urice, Law, Ethics and the Visual
Arts 989–90 (2007). To be sure, in a normal world, these
diligence considerations are logical to a system of law.
Time brings the erosion of memory, disappearance of
witnesses or evidence, and increased opportunity for
fraud; it may become increasingly unfair to upset the
reasonable expectations of purchasers or donees; and,
finally, we should not reward those who “sleep on their
rights.” Id. But Holocaust looting and forced sales had
none of the attributes that support application of these
normal time-based doctrines. To the contrary, as shown
above, Holocaust looting was abnormal in all respects.
Victims were not able assert and protect their property

22
rights, engage in fair transactions, or access state
authorities or the courts to validate their rights. Under
these circumstances—widely known to museums, art
dealers, and collectors—it would seem axiomatic that
normal time-based defenses could not be available to cut
off potentially meritorious claims. As long recognized by
the Court, “he who seeks equity must do equity.” United
States v. Giles, 13 U.S. 212 (1815); see also Brown v.
Lake Superior Iron Co., 134 U.S. 530, 535 (1890) (“[T]
he maxim, ‘He who seeks equity must do equity,’ is as
appropriate to the conduct of the defendant as to that of
the complainant.”).
The HEAR Act was designed to reinsert that idea
into the consideration of Holocaust-era art claims. In 2016,
Congress “created a unique federal statute of limitations
preempting other defenses related to the passage of
time and providing six years to file a claim only after a
claimant has discovered the identity and location of the
artwork.” Stuart E. Eizenstat, Art Stolen By the Nazis
is Still Missing. Here’s How We Can Recover It., Wash.
Post (Jan 2 , 2019). Faced with a patchwork quilt of timebased defenses that could be used to stop Holocaust-era
art claims from reaching their merits—and rather than
create a list that might have omitted one of the many timebased defenses—Congress employed broad language
preempting “any defenses at law relating to the passage of
time” for claims brought within the Act’s six-year statute
of limitations. HEAR Act, Pub. L. No. 114-308, § 5(a), 130
Stat. 1524, 1526 (2016) (emphasis added). Highlighting the
desire to address the problem of “technical defenses” writ
broadly, Congress directly cited the principles adopted
at the Washington and Prague conferences in the Act’s
preamble. See HEAR Act § 2(4)-(5). Hence, rather than

23
looking at the statute in a vacuum, as the court below erred
in doing, the HEAR Act—and its express preamble—
must be viewed as seeking to address comprehensively a
multifaceted problem.
The decision below threatens to eviscerate the express
will of Congress. By limiting the HEAR Act to one timebased defense, the court below will prevent Holocaust-era
art claims from being heard on their merits—the precise
result that the HEAR Act seeks to avoid. Given that the
HEAR Act was a statute intended to have national reach,
this Court’s intervention is warranted to prevent the Act
from becoming a dead letter.
CONCLUSION
Amicus Curiae respectfully urges the Court to grant
the petition.
				Respectfully submitted,
Owen Pell
Counsel of Record
Sequoia K aul
Sinclaire Marber
White & Case LLP
1221 Avenue of the Americas
New York, New York 10020
opell@whitecase.com
Counsel for Amicus Curiae
February 25, 2020

